WAIVER

Supreme Court, U.S.
FILED

JUL 2 9 2021

Supreme Court of the United States

OFFICE OF THE CLERK

No. 21-5071

Gigi Fairchild Littlefield
(Petitioner)

v.

California
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
Ea

I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check :the .appropriate box:
I am a member of the Bar of the Supreme Court of the United. States. (Filing Instructions:
File a Signed Waiver in the Supreme Court Electronic Filing_Syste'in. The system will
prompt you to enter your appearance first.)
am not presently a member of the Bar of this Court. Should-a response be requested, the
response will be filed by a Bar member, (Filing InstrUctionS: Mail the original signed form
to: Supreme Court, Attn. Clerk Office; 1 First Street, NE, Washington, D.C. 20543).
Signature
Date:

July 28.2021.

(Type or print) Name MARIA G. CHAN
0 Mr.
®Ms.

0 Mrs.

El Miss

Firm . State of California. Attorney General's Office
Address 1300 I Street. Suite 1101
City & State
Phone

Sacramento. CA

(916)2107518

Zip
Email

95814

Maria.Chan@doj.ca.goy

A COPY OF THIS FORM MUST BE SENT ,TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENTS) OF,A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER
IS REQUIRED.
,
.
cc: Gigi Fatrchild.Littlefield, N.27638 .
Central California Women's Facility
P.O. Box 1508
Chowchilla, CA 93610-1908
In Pro Se

RECEIVED
AUG - 5 2021

28famiFayaRiest

